Nos. 20-795 and 20-796

In the Supreme Court of the United States
STATE OF NEW YORK, ET AL., PETITIONERS
v.
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.
CITY OF NEW YORK, PETITIONER
v.
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.
ON PETITIONS FOR WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE FEDERAL RESPONDENTS

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-795
STATE OF NEW YORK, ET AL., PETITIONERS
v.
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.
No. 20-796
CITY OF NEW YORK, PETITIONER
v.
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.
ON PETITIONS FOR WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE FEDERAL RESPONDENTS

Both of the petitions for writs of certiorari seek review of the Second Circuit’s judgment in New York v.
United States Department of Justice, 951 F.3d 84
(2020), and each presents the question whether three
conditions that the Department of Justice adopted for
awards under the Edward Byrne Memorial Justice Assistance Grant (Byrne JAG) program for Fiscal Year
2017 are valid exercises of the Department’s statutory
authority, 20-795 Pet. i; 20-796 Pet. i. The government
previously filed a petition for a writ of certiorari that
(1)

2
seeks review of a decision of the Ninth Circuit involving challenges to the same three Byrne JAG conditions, City & Cnty. of San Francisco v. Barr, 965 F.3d
753 (2020), petition for cert. pending, No. 20-666 (filed
Nov. 13, 2020), and that raises substantially similar issues of the conditions’ validity and enforceability,
20-666 Pet. at I, 15-35. Moreover, the conditions are
the subject of an entrenched circuit conflict, including
between the Ninth Circuit’s decision in San Francisco
and the Second Circuit’s decision here. Id. at 32-35.
Accordingly, although the government agrees with the
Second Circuit that all three conditions are statutorily
authorized, it agrees with petitioners that the question
presented warrants this Court’s review.
The Court should grant both of the petitions in this
case, as well as the government’s petition in No. 20-666,
because each of the Second and Ninth Circuits’ respective decisions addresses at least one issue that the other
decision does not. As petitioners observe (20-795 Pet.
34-35; 20-796 Pet. 2, 15-16), the Second Circuit here
squarely addressed the statutory authorization for all
three conditions, whereas the Ninth Circuit in San
Francisco decided the validity of only two conditions
(reserving judgment on the validity of the third). Conversely, the Ninth Circuit in San Francisco resolved a
question the Second Circuit did not reach, adopting an artificially narrow interpretation of a key statutory provision (8 U.S.C. 1373) that the third condition implements—
a ruling that largely eviscerates Section 1373 and, with it,
the third condition. To ensure that the Court can address all relevant issues, it should grant all three petitions (Nos. 20-666, 20-795, and 20-796), and it should
consolidate the cases and realign the parties for purposes of briefing and argument.

3
1. The Byrne JAG program, see 34 U.S.C. 10151
et seq., “is the vehicle through which Congress annually
provides more than $250 million in federal funding for
State and local criminal justice efforts.” 20-795 Pet.
App. (Pet. App.) 8a. The program is administered by the
Office of Justice Programs (OJP) within the Department
of Justice, and Congress has authorized and directed the
Attorney General to “issue rules to carry out” the program. 34 U.S.C. 10155; see Pet. App. 11a-12a.
Byrne JAG funds are divided among recipients
based on a statutory formula, largely premised on population and crime statistics. See 34 U.S.C. 10156. But
Congress has expressly authorized OJP to “plac[e] special conditions on all grants.” 34 U.S.C. 10102(a)(6). In
addition, the statute requires each Byrne JAG applicant
to provide to OJP an “assurance” that the applicant
“shall maintain and report such data, records, and information (programmatic and financial) as the Attorney
General may reasonably require”; and to submit a “certification, made in a form acceptable to the Attorney
General,” that “there has been appropriate coordination
with affected agencies” and that the applicant “will comply with” the principal statutory provisions establishing
the Byrne JAG program “and all other applicable Federal laws.” 34 U.S.C. 10153(a)(4), (5)(C), and (D).
Exercising that statutory authority, for Fiscal Year
2017, OJP announced three grant conditions that all applicants for Byrne JAG funds must satisfy. First, the
“[n]otice [c]ondition” requires a grantee to have a policy
designed to ensure that its facilities provide, upon a request by the Department of Homeland Security, advance notice of the scheduled release date and time for
a particular alien. Pet. App. 6a. Second, the “[a]ccess

4
[c]ondition” requires a grantee to have a policy to “afford federal authorities access” to its facilities to meet
with an alien. Id. at 6a-7a. Third, the “certification condition” requires a grantee to comply with 8 U.S.C.
1373—which generally bars state and local governments from restricting the sharing of “information regarding the citizenship or immigration status * * * of
any individual” with federal immigration authorities,
ibid.—and to certify such compliance. Pet. App. 6a.
2. a. In 2018, petitioners—New York and six other
States in No. 20-795, and the City of New York in No.
20-796—brought separate suits challenging the three
conditions, alleging (as relevant here) that the Department of Justice lacks statutory authority to impose
them. Pet. App. 127a. In a consolidated decision, the
district court granted summary judgment to petitioners
in both suits, concluding that the conditions are not statutorily authorized. Id. at 117a-170a.
b. A panel of the court of appeals reversed. Pet.
App. 1a-73a. The panel determined that all three
conditions are statutorily authorized. Id. at 26a-68a.
Although it disagreed with the government’s contention
that the conditions are authorized by 34 U.S.C.
10102(a)(6)—which authorizes OJP to “plac[e] special
conditions on all grants,” ibid.—the panel concluded
that provisions of the Byrne JAG statute itself empower
OJP to impose the conditions. Pet. App. 34a-46a,
58a-68a. The panel found that the notice and access conditions are authorized by the statutory provisions requiring grantees to ensure “appropriate coordination
with affected agencies,” 34 U.S.C. 10153(a)(5)(C), and
directing the Attorney General to issue rules to implement the Byrne JAG program, 34 U.S.C. 10155; that
the notice condition is additionally authorized by the

5
provision requiring grantees to report “such * * * information * * * as the Attorney General may reasonably require,” 34 U.S.C. 10153(a)(4); and that the certification condition is authorized by the provision requiring grantees to comply (and to certify their compliance) with “all other applicable Federal laws,”
34 U.S.C. 10153(a)(5)(D), including 8 U.S.C. 1373. Pet.
App. 33a-46a, 58a-68a.
c. The court of appeals denied rehearing en banc.
Pet. App. 74a-76a. Twelve judges joined a total of five
separate opinions concurring in or dissenting from the
denial of rehearing. Id. at 77a-81a (Cabranes, J.,
joined by Livingston, Sullivan, Bianco, Nardini, and
Menashi, JJ., concurring); id. at 82a-87a (Lohier, J.,
joined by Hall, J., concurring); id. at 88a-90a (Sullivan,
J., joined by Cabranes, Livingston, and Bianco, JJ., concurring); id. at 91a-108a (Pooler, J., joined by Chin and
Carney, JJ., dissenting); id. at 109a-116a (Katzmann,
C.J., dissenting).
3. The present petitions seek review of the court of
appeals’ determination that all three conditions are
statutorily authorized. 20-795 Pet. i, 12-34; 20-796 Pet.
i, 13-29. Although the government agrees with the Second Circuit panel’s ultimate conclusion that the Department of Justice has statutory authority to impose each
of the conditions, the government agrees that the question warrants this Court’s review.
As petitioners observe (e.g., 20-795 Pet. 13), the government has filed a petition for a writ of certiorari
seeking review of substantially the same issues in San
Francisco, supra, which concerns a challenge to the
same three conditions. 20-666 Pet. at I, 15-32. In San
Francisco, the Ninth Circuit concluded that the notice
and access conditions are not statutorily authorized.

6
965 F.3d at 760-761. The court did not address
whether the certification condition is authorized; instead, it concluded that the grantees in that case are
not violating the certification condition, based on a narrow interpretation of the statute (8 U.S.C. 1373) with
which that condition requires Byrne JAG grantees to
comply. 965 F.3d at 761-764.
As the government explained in its San Francisco
petition, the Ninth Circuit’s decision is erroneous and
warrants this Court’s review. 20-666 Pet. at 15-35. The
panel there misread the relevant statutory provisions
by disregarding the statutory text and context and by
reading in limitations that Congress did not enact. Id.
at 16-32. And the decision implicates an entrenched circuit conflict—including with the decision below in this
case—that is unlikely to resolve itself in light of the Second Circuit’s denial of rehearing en banc. Id. at 32-35.
The present petitions seek review of the same central
question—the Department’s statutory authority to impose (and to withhold funding for noncompliance with)
the three conditions—and likewise warrant review.
4. Petitioners suggest (20-795 Pet. 34-35; 20-796
Pet. 2, 15-16) that the Court should grant only their petitions, and not the government’s petition in San Francisco, because the Second Circuit panel here squarely
addressed the validity of all three conditions, whereas
the Ninth Circuit reserved judgment on whether the
certification condition is statutorily authorized. The
government agrees that the Court should grant the present petitions to avoid any potential obstacle to resolving the certification condition’s validity. But the Court
should grant review in San Francisco as well, so that it
may address the Ninth Circuit’s misreading of Section
1373—which the Second Circuit did not reach, but

7
which has the practical effect of eviscerating the certification condition. 20-666 Pet. at 28-32. The Court thus
should grant all three petitions, consolidate the cases,
and realign the parties for purposes of briefing and argument.
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

JANUARY 2021

